No. 19IN THE SUPREME COURT OF THE UNITED STATES
THOMAS W. MCDONALD, JR.,
CHAPTER 13 BANKRUPTCY TRUSTEE,
Petitioner
v.
PAUL E. WENZLOFF, ET AL,
Respondents.
CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that the document
contains 2,928 words, excluding the parts of the document that are exempted
by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June S1!

. 2019.

Chapter 13 Trustee
Petitioner
3144 Davenport Ave.
Saginaw, MI 48602
Telephone: (989) 792-6766
Email: ecfi@mcdonaldl3.org

